U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Wali Ross v. United States, No. 20-5589
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 28,
2020. The government’s response is now due, after one extension, on December 2, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 4, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5589
ROSS, WALI
USA

RICHARD MICHAEL SUMMA
FEDERAL PUBLIC DEFENDER, NORTHERN
DISTRICT OF FLOR
227 N. BRONOUGH STREET
STE. 4200
TALLAHASSEE, FL 32301-1300
850-942-8818
RICHARD_SUMMA@FD.ORG

